ti

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
fotegoing Petition for Writ of Certiorari in Frederick B.
Wright u. Administrative Review Board, United States
Department of Labor, was sent via Two Day Service to
the U.S. Supreme Court, and 3 copies were sent via
Two Day and e-mail service to the following parties
listed below, this 17th day of June, 2021:
Sarah J. Starrett
U.S. Department of Labor
Office of the Solicitor, Fair Labor Standards Division
Room N2716
200 Constitution Avenue, N.W.
Washington, DC 20210
(202) 693-5566
Starrett.sarah@dol.gov

Counsel for Respondent
Eric M. Schiffer
Counsel of Record
Schiffer & Buus, APC
959 South Coast Drive, Suite 385
Costa Mesa, CA 92626
(949) 825-6140
eschiffer@schifferbuus.com

Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(8CXl) 890.5001

Wv.w.beckergallagher.com

I 8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

I Franklin Square

1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on June 1 7, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affi.ant on the date below designated.

2/.;...,
!l..~

Date:

~/,
l

Notary Public
[seal]

